8

O (1 “

(Cs

No.

Supreme Court, U.S.
FILED

JUL 2 0 2020

18-3040

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

JOSE A. GARCIA

— PETITIONER

(Your Name)
vs.

UNITED STATES OF AMERICA _ RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

UNTTF.D STATES COURT OF APPEALS FOR THE EIGHTH..GLELCHTL-.
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

JOSE A. GARCIA
(Your Name)

FCC FORREST CITY, P.O. BOX 3000
(Address)

FORREST CITY, AR 72336
(City, State, Zip Code)
n "\
m /-J
(Phone Number)

Ui!

i
Vi

I

V..

.-vJ

s

\

i

L-

;> ••

QUESTIONS PRESENTED

0

Were Mr. Garcia Due Process Rights violated under the Fifth
and Fourteenth Amendment when he was:
A.) Incorrectly sentenced under U.S.S.G. 4Bl-2(c) Term used in
section 4B1.1 Career Offender.
B.) Double counting of the instant offense of aiding and abetting
was an abuse of discretion, failure to correct plain U.S.S.G. error
that affected Mr. Garcia's substantial rights seriously affected
the fair, integrity and public reputation of judicial proceesings
C.) The P.S.I. in plain error attribute aiding and abetting as a
previous prior conviction U.S.S.G. 4A1.1 incorrectly.

©

United States vs. Olano, 507 U.S. 725
United States vs. Rosales-Mireles ,

585 U.S. 138

United States vs. Peugh, 569 U.S. 537
United States vs. Molina-Martinez 578 U.S. 136
Were Mr. Garcia Due Proces Rights violated under the Fifth
and Fourteenth Amendment, when he was:
A.) Determined by the District Court that Mr. Garcia qualified as
a career offender pursuant to U.S.S.G. § 4Bl-l(a) because he had
one prior conviction for "crime of violence" Arkansas Code §
5-2-403 and 5-13-202. Accomplice to second degree battery.
Determining the statute of conviction and its Elements.

o

B.) Government abuse its discretion when they applied modified

i.

categorical approach and use the "Shepard documents" material—

0

surrounding his 2008 conviction are inconclusive.
C.) Compared the elements of the statute of conviction to the
definition.
United States vs. Shepard, 544 U.S. 13 (2005)
United States vs. Taylor, 495 U.S. 575 (1990)
United States vs. Mathis, 136 S. Ct. 2243 (2016)
United States vs. Descamps, 134 S. Ct. 1405 (2014)
United States vs. McMillan, 863 F.3d 1053, 1057 (8yh Cir. 2017)
Were Mr. Garcia’s Due Process Rights violated under the Fifth,
Sixth, and Fourteenth Amendments when he was:

o

A.) Denied motion for Retest when defense of counsel for Mr. Garcia
fail to give reasonable explanation why a retest was needed.
B.) The D.E.A. Chemical Analysis Report on the exhibit report was
inaccurate.

The laboratory accepted the evidence on 5/24/2016

and it shows a gross weight 87-2g which is incorrectly with the
siezed in relation to Mr. Garcia in count three indicates a gross
weight of 55.453 g
C.) Use of actual methamphetamine Guideline the court should have
use the methamphetamine mixture guidelines rather than actual in
determining his sentencing range that there is no longer an
empirical ratio for actual (or ice) methamphetamine versus mixture
of methamphetamine.

c

United States vs. Hayes, 948 F.Supp 3d 969 (N.D. Iowa)

ii.

e

United States vs. Nawanna, 321 F.Supp 3d 943 (N.D. Iowa 2018)
United States vs. Harry, 313 F.Supp 969 (N.D. Iowa 2018)
United States vs. Sepulveda, 15 F.3d 1161, 1198 (1st Cir 1993)
United States vs. Ladd, 885 F.2d 954, 956 (1st Cit. 1998)

o

o
iii .

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

iv.

.

TABLE OF CONTENTS
1

OPINIONS BELOW
JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

9

CONCLUSION

.18

INDEX TO APPENDICES
APPENDIX A

Eighth Circuit Court of Appeals

APPENDIX B EigV\W>

Ci'fCui V

Co o v~ V

APPENDIX C

APPENDIX D
APPENDIX E
APPENDIX F

v.

IXjjpecAs

■for veV>ecu-iYv^£r\ bo/ncL)

TABLES OF AUTHORITIES CITED
PAGE NUMBER

CASES
United States v. Rosales-Mircles
, 138 S. Ct.
_________
585

10,11

United States v. Olano,
507 U.S. 725

9

Molina-Martinez v. United States,
578 U.S. at 136 S. Ct.

9.11
>

Peugh v. United States
552 U.S. 38

10

United States v. Shepard>
544 U.S. 13

12

United States v. Taylor,
495 U.S. 575

14

Johnson v. United States,
130 S. Ct. 1265 (2010)

14

United States v. Descamps>
133 S. Ct. 2276 (2013)

12

United States v. Mathis,
136 S. Ct. 2243 (2016)

13

United States v. McMillian,
863 F.3d 1053, 1057 (8th Cir. 2017)

12

United States v. Ladd
885 F.2d 954, 956 (1st Cir. 1989)

15

United States v. Sepulveda,
15 F.3d 1161, 1198 (1st Cir. 1993)

16

United States v. Hayes,
948 F.Supp 2d at 1031

17

United States v. Nawanna,
321 F.Supp 3d 969 (N.D. Iowa)

vi.

___

17

o

§ 4Bl.2(c) Definition of terra used in section 4B1.1

9

§ 2Dl.l(c) Drug Quantity Table ______________________

3

Rule 52(b) Substantial Right to Plain Error-------------

11

§ 4Al.l(a) Criminal History__________________________

10,11

OTHER
U.S.S.G

on Modified Categorical Approach

Ark. Code § 5-13-202(a)

11*12,14

Ark. Code § 5-2-403 __

11,12,14

o

©
vii.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix _A-----to
the petition and is
—; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[X3 is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
5 or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
i

The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
court
The opinion of the _
to
the
petition
and
is
appears at Appendix
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

.. to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
12-26-2019
was
[ ] No petition for rehearing was timely filed in my case.
[

A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: March 13. 2020. , and a copy of the
order denying rehearing appears at Appendix

f J An extension of time to file the petition for a writ of certiorari was granted
__(date)
(date) on
to and including______
in Application No.---- A
The jurisdiction of this Court is invoked under 28 U. S. C. §1254(1).

I ] For cases from state courts:
The date on which the highest state court decided my case was------A copy of that decision appears at Appendix----------[ ] A timely petition for rehearing was thereafter denied on the following date:
_____________ __________, and a copy of the order denying rehearing
appears at Appendix---------[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No. —A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

0

Fifth Amendment
Sixth Amendment
Fourteenth Amendment

§ 4Al.l(a) Criminal History Category
-predicate offense However for purpose of determining predicate
offense, a prior sentence included in the single sentence should
be treated as if it received criminal history points,

Therefore

and individual prior sentnece may serve as a predicate offense
under career offender guidelines 4B1.2(c)
§ 4B1.2 Definition of term used in section 4B1.1
(1) has an element the use, attempted use, or threatened use of

0

physical force against the person of another or
§ 4B1.2(c)
The term "two prior felony convictions' means the defendant
committed the instant offense of conviction subsequent to sustaining
at least two felony convictions of crime of violence or controlled
substance offense (two felony convictions of crime of violence,
two felony convictions of a controlled substance offense of one
felony conviction of crime of violence and one felony conviction
of controlled substance.
§ 2D1.1(c)(4) Druq Quantity Table
50g but less than 150g of Ice.

o
3.

©

STATEMENT OF THE CASE
On September 25, 2017, Jose Alonso Garcia was named in an
eight count Indictment filed in the Western District of Arkansas.
Count One charged Mr. Garcia with conspiracy to distribute meth-..
amphetamine in violation of 21 U.S.C. § 841(a)(1) Count Three of
the Indictment charged Mr. Garcia with distribution of five (5)
grams or more of methamphetamine in violation of 21 U.S.C. § 841
(a)(1), 841(b)(B)(viii) and 18 U.S.C. § 2.
On April 24, 2018 Mr. Garcia appeared before Honorable P.K.
Holmes III, for a change of plea hearing,

Mr. Garcia was repre-

sented by his court appointed attorney Russell A. Wood and entered
a conditional plea of guilty to Count Three of the Indictment

o

pursuant to a written plea agreement that was filed with the court
on the same date.

The court accepted Mr. Garcia's conditional

guilty plea and expressed approval of the plea agreement pending
completion of the P.S.R.
The P.S.R. was prepared by the United States Probation Officer
and the final version of the report ultimately filed with the
court on August 1, 2018.

On September 12, 2018 the court then

accepted the Presentence Investigation Report with the appropriate
changes.

The court took up the Career Offender enhancement

objection regarding the argument that the Aiding and Abetting
charge was not "Controlled Substance Offense" the district court
concluded that U.S.S.G. § 2X2.1 controls, making the Aiding and

o

Abetting charge the same as the underlying offense.

4.

o

The court next addressed the argument that a conviction of
Accomplace to Battery 2nd, is not a "a crime of violence.

The

court noted that the offense of Battery in the 2nd is an offense
that also includes an element for which a person can be convicted
of the mental intent recklessness as opposed to purposeful intent.
The court also noted that the Eighth Circuit has stated that
Battery 2nd is not a crime of violence and since the statute is
divisible the court will use what is called the modified categorical
approach to determine whether nor not the defendant's conviction
actually occurred with purposeful intent as opposed to reckless
intent.

The court stated that under modified approach, the court

is permitted to look at the charging documents to determine the
extent of defendant's criminal conduct and to determine whether

©

it is crime of violence.
The court then marked as court Exhibit 1 a copy of the felony
information which charged Mr. Garcia with Accomplice to Battery 2nd.
The court then went on to read Count One of the information with
alleged Garcia aided the other person in committing with the
purpose of causing physical injury another person and determined
that under the categorical approach the court found that the
particular conviction for Battery 2nd is in fact, a crime of
violence.
The court then acknowledged that Mr. Garcia s plea agreement
was a conditional plea because Mr. Garcia filed a motion for
retesting the drug quantity and quality and a motion for approval

o

of expenditures and that the court denied that motion.

5.

The court

advised Mr. Garcia that should he prevail on his appeal of the

©

denial of that motion he would be allowed to withdraw his guilty
plea.

The court discussed 3B1-2 requirements and 5 factors to

consider.
The court then narrowed its consideration from the phone calls
where Mr. Garcia made while incarcerated in the county jail months
later to simply "the facts as they relate to that particular
transaction."

The court applied the factors,

On May 19, 2016.

the court determined that Mr. Garcia was not entitled to a reduction
for minor or minimal role participant,

The court then proceeded

to set forth the sentencing options in the case,

The court

calculated Mr. Garcia's total offense level to be 31 and criminal
history category to VI based on these calculations, the guidelines

0)

recommended a sentence of 188 to 235 months.
On November 19, 2018 defense counsel Mr. Woods filed a direct
appeal in the United States Court of Appeals for the Eighth Circuit
following a decision for the United States District Court in the
Western District of Arkansas.

His appeal was denied,

Mr. Garcia

next filed a petition for Rehearing En banc timely and a Rehearing
by the panel was denied.
Mr. Garcia asserts that his previous aiding and abetting
distribution of methamphetamine conviction is not a controlled
substance offense,

The Court of Appeals concluded that the district

court did not err in considering Garcia's previous conviction for

o

aiding and abetting distribution of methamphetamine as a controlled
substance offense for purposes of the Career Offender sentencing

6.

c

enhancement.
Garcia also asserts that his conviction as an accomplice to
second degree battery under Arkansas law cannot qualify as

a

crime of violence for the purpose of the career enhancement because
it does not have an elements "the use attempted used, or threatened
use physical force as required by U.S.S.G. § 4Bl-2(a) force clause.
The use of the modified categorical approach to determine for which
crime the defendant actually pleaded guilty.

The district court

relied on a document felony information underlying Garcia's state
conviction includes the following relevant languages alleging that
by striking and kicking another causing a fractured orbital socket
and pallet.

c

The Court of Appeal were satisfied that the record

of conviction demonstrates Garcia was convicted for.
The United States Court of Appeals for the Eighth Circuit
view Mr. Garcia's first claim the denial of his motion for retesting
of drug quality and quantity and for approval of expenditures
because the purity of the drugs was in question and the district
court, at the very least
on the motion.

should have conducted an exparte hearing

For the reason they set forth in United States v.

Escalante, No. 18-3033, they conclude the district court did not
abuse its discretion in denying the motion.
Garcia next asserts that the district court erred by failing
to award him a minor participant or minimal role offenses level
reduction in calculating his Guidelines sentencing range,

c

The

court concluded that Esclante seemed to "have had a little bit
more involvement in the transaction" but concluded that Garcia

7.

c

and Esclante played very similar roles and the "the culpability
of these two individuals is fair comparable."

Although the

district court determined there was no evidence that Garcia participated in planning the transaction or exercised and decision­
making authority the district court determined the other factors
weighed against awarding the reduction,

The Court of Appeals

concluded No clear error in the district court's denial of the
minor participant or minimal reduction.

c

c
8.

REASONS FOR GRANTING THE WRIT

0

A.)

Mr. Garcia Due Process Rights were violated under the Fifth

and Fourteenth Amendment, when he was incorectly sentenced under
U.S.S.G. 4B1-2 (C) Term used in section 4B1-1 Career offender.
Although Mr. Garcia defense of counsel did not brought to the
district court's attention and on Mr. Garcia direct appeal that
he does not have a previous state conviction of aiding and abetting
Fed. R. Crim. P. 52(b) provides that a plain error that affects
substantial rights.
507 U.S. 725.

May be considered, United States v. Olano,

Defense of counsel for Mr. Garcia did not object

to the error in the district court not on the direct appeal which
relied on the miscalculaed Guidelines range of career offender
recommended by the probation office.

Level 34 category VI 262 to

327 months.
Because under the § 4Bl-2(c) the term "two prior felony con­
victions" use in section § 4B1-1 is inconsistent in the case of
Mr. Garcia, this error of a previous aiding and abetting use as
a predicated offense is plain that is to say clear or obvious.
This error have affected Mr. Garcia substantial rights.

As a result

of this error resulting in a higher range than the Guidelines
provide.

Mr. Garcia without the career offender status would of

started at level 30 category VI calculated range would have been
168-210 months.

Mr. Garcia would have been subject to a different

sentence but for the error.
578 U.S.

O

United States v. Molina-Martinez

136.

Mr. Garcia have met the conditions established in Olano, 507,

9.

©

U.S. 725.

This Court should exercise its discretion to correct

the forfeited error.

This error affects the fair, integrity

reputation of judicial proceedings.

Id at

, 136 S. Ct. 1338,

194 L Ed 2d 444.
B.)

Double counting of the instant offense of aiding and abetting.

The probation.officer in its presentence investigation report
mistakenly counted the instance offense of aiding and abetting
twice.

Once for the instance offense and second for a prior con­

viction predicate offense under the 4B1-1, which Mr. Garcia does
not have orrhis record or P.S.I.

Mr. Garcia Substantial Rights

were violated United States v. Rosales-Mircles, 585 U.S. 138.

The

district court has the ultimate responsibility to ensure that the
Guidelines range it considers is correct and failure to calculate

©

the correct Guidelines range constitutes procedural error United
States v. Peugh, 596 U.S. 537.
Mr. Garcia Guidelines with the error of Career Enhancement
yield a Guideline range of 267-327 months.
for owning to his

Three point reduction

responsibilities arrive at 188-235 months and

received the low end without this error,

Mr. Garcia correct Guide-

lines with owing to his responsibilities three point reduction
would of been 130-162 months,

This error affected Mr. Garcia

substantial rights United States v. Rosales-Mircles, 585 U.S. 138.
Because Mr. Garcia sentence of 188 months fell beyond unreasonable
and the error by itself would shock the conscience of due process.

o

C.)

The probation officer in Plain Error attribute aiding and

abetting as a state prior conviction U.S.S.G. 4A.1 incorrectly.

10.

Mr Garcia does not have any previous state conviction of aiding
and abetting that added points in his P.S.I. under § 4A1.1.
Mr. Garcia sentence was based ona mistake made in the presentence
investigation report by the probation of fice, who works on behalf
of the District Court.

This error seriously affects the fairness,

integrity or public reputation of judicial proceedings United
States v. Molina-Martinez, 578 U.S..

There is a reasonable proba-

bility that without correction of the Guidelines error, Mr. Garcia
will spend more time in prison that the District Court otherwise
would have consider necessary United States v. Rosales-Mireles,
850 F.3d at 244.

Therefore this error violates Mr. Garcia Sub-

stantial Rights .

Fed. R. Crim. P. 52(b) should be consider under

Olano, 507 U.S. 725.
Were Mr. Garcia Due Process Rights violated under the Fifth
and Fourteenth Amendment when he was:
A.)

Determined by the District Court that Mr. Garcia qualified

as a career offender pursuant to U.S.S.G. § 4Bl-l(a) because he
had one prior conviction for "crime of violence" Arkansas Code §
5-2-403 and 5-13-202 accomplice to second degree battery.
determining the statute of conviction and its elements.

In
The

District Court cited the felony information to determine whether
the prior conviction for accomplice to Battery 2nd was a crime
of violence" the Government applied the modified categorical
approach and only analize Ark Code § 5-13-202(a) but erred to
analize § 5-2-403 accomplice statute,

o

Exhibit 1 count one states

with purpose of promoting or facilitating the commission of an

11.

offense.they aided the other person in committing,

G

This part of

the inquiry was ignored by the government and they only address
Ark Code § 5-13-202(a).

This plain error affect Mr. Garcia's

Substantial Rights and the right to a fair trial,

Namely, to

help courts determine which statutory phrase within the statute
listing several different crimes was the basis of conviction.
Courts may not apply the modified categorical approach to sentencing
under A.C.C.A. when the crime of which the defendant was convicted
has a single, indivisible set of elements; Courts may only apply
this approach of the statute is divisible Descamp v. United States,
134 S. Ct. 1405 (2014).

Ark Code Ann § 5-2-403 accomplice has

indivisible set of elements. Therefore is not a predicate offense.
(See Exhibit 2 Ark. Code 5-2-403)
B.)

o

Government abuse its discretion when they applied modified

categorical approach and use the "sherpard documents,"
surrounding his 2008 conviction are inconclusive.

material

The Government

relied on a felony information where they only analyze half of
the inquiry Ark 5-13-202(a) but left out Ark Code § 5-2-403
when analyzing which words or phrases of a statute form the elements
of a crime and when you leave out part of that phrases or word,
makes a huge difference of the interpretation of the phrases or
word United States v. McMillian, 863 F.3d 1053, 1057 (8th Cir. 2017).
Additionally an information is only allegations and the govern­
ment did not present any evidence of the facts to which Mr. Garcia
actually plead guilty to in state court.
544 U.S. 18 (2005)

G

Shepard v. United States,

Under the A.C.C.A., is limited to the terms

of the charging document, the term of a plea agreement or trans-

12.

cript of colloquy between judge and defendant in which the factual
@

basis for the plea was confirmed by the defendant, or to some
The Government

comparable judicial record of this information,

court violated Mr. Garcia's Dur Process Rights in basing his
determination of allegations in the information where they only
analyze battery 2nd and Not accomplice Mr. Garcia's was convicted
of.

Mr. Garcia was sentence under two statutes,

Exhibit 1 count

one alleges only that with the purpose of promoting or facilitating
the offense, he aided the codefendants.

This conduct is not

attempted, threatened or actual use of force,

Additionally, the

information staes that "defendants" struck and kicked another
person.

It does not identify the defendants or what part Mr. Garcia

play in this prior conviction.

o

If Mr. Garcia engaged in this

conduct, he would have been charge with battery 2nd degree not as
an accomplice.

The statutory language is inconclusive, state court

decisions fails to provide clear answers and the record materials
do nob speak plainly Mathis v.. United States, 136 S. Ct. 2243 (2016).
C.)

The Court must always limit its analysis to comparing the

elements of the predicate offense to the applicable definition.
The Court may not look to the underlying conduct even where the
parties have access to the allegations or even to uncontroverted
proof, aobut the predicate offense.

Even where courts are

authorized to review the documents authorized by "Sherpard" to
determine the elements of statute of conviction, the focus of the
inquiry does not become the underlying conduct, but instead

o

remains only on determining the statute of conviction.

In Mr.

Garcia prior conviction pleaded case there were no statements of

13.

factual basis for the charge shown by a transcript plea colloquy

©

or by written plea agreement present to the court could generally
tell from such material whether this prior conviction plea had
’’necessarily" rest on the fact Taylor v. United States, 495 U.S.
575 (1990).

The Government erred in basing his determination of

allegation in the information rather fact legally required to be
stated in court to support the {boJrVery^t^conviction.

In Taylor,

conclusion required confining generic conviction evidence to the
conviction court's records approach the certainty on the record
of conviction in a generic

crime state that was the heart of

Taylor decision.
In Johnson v. United States 559 U.S. at 137 Court held all of
these definitions suggest a degree of power that would not be

©

satisfied by the merest touching,

Mr. garcia's prior conviction

of accomplice to a battery 2nd , does not have elements violent
force.

The Government compared the elements in the statute Ark.

Code § 5-13-202 to the elements of the generic definition to
qualify this prior conviction guidelines provision,

The Government

violated Mr. Garcia's Due Process Rights and Substantial Rights
because Mr. Garcia was sentenced under two statutes 5-2-403
accomplice and battery 2nd 5-13-202.

The Government ignored the

elements of accomplice to compared to generic definition because
it is overbroad that is it proscribe a large sphere of conduct
then is targeted by the generic offense accomplice to battery 2nd
does not qualify.

Mathis v. United States 136 S. Ct. at 2251.

14.

o

Were Mr. Garcia's Due Process Rights violated under the Fifth,
Sixth and Fourteenth Amendments when he was:
Denied motion for retest when defense of counsel for Mr. Garcia
fail to give reasonable explanation why a retest was needed.
Defense of counsel for Mr. Garcia fail to object to the errors in
the analysis report.

If Mr.Garcia was granted retest of the drug

he could prove that he was sentence in the incorrect guideline of
actual methamphetamine.

There was no expert testimony to estab-

lished the quality of the drug in

question.

The gross wieght of

87.2g was not the weight seized in chain of custody.

This errors

cause Mr. Garcia unfair trial.
B.)

©

The D.E.A. chemical analysis report on the exhibit report

(Exhibit 3) was inaccurate,

The laboratory accepted the evidence

on 5/24/2016 and it shows a gross weight 87.2g which is incorrectly
with the seized in relation to Mr. Garcia in Count three indicates
a gross weight of 55.453g.

The proof offered of the chain of

custody of drug between seizure and analysis was insufficient.
In order to meet its burden of demonstrating drug quantity, the
government must perforce make a satisfactory showing of the
identity of the drug weighed with the drug seized.

Where there is

some indication that the drugs weighed may not be the drugs seized,
the Government will have to go further to demonstrate a chain of
custody providing identity United States v. Ladd

885 F.2d 954,

956 (1st Cir. 1989).
In Mr. Garcia's case there was not such indication, credible

©

testimony that the drugs were in official hands at all times.
15.

©

The description of the drug receipt were not offer in Mr. Garcia
drug seized in Count three of the indictment only that he was
involved in a transaction of 55.453g.

This is inconsistent with

the state lab descriptions of 87.2g gross weight it received on
5/24/2016 and there was no testimony at hearing trial of agent
Keene nor the D.E.A. of the drug quantity seized were the same
drugs as were turned over to the state lab. Therefore this affect
Mr.Garcia substantial rights and the right to a fair trial.

It

is the government's burden at sentencing to prove drug quantity
by a preponderance of the evidence United States v. Sepulveda,
15 F.3d 1161, 1195 (1st Cir. 1993)

The drug found by the court

was unsupported by such a preponderance.
In the case of Mr. Garcia granted of the Retest would of
support Mr. Garcia's assertions but he was denied a fair trial.
Defense of counsel for Mr. garcia fail to object to the admisible
of the evidence on this exhibit detail evidence and explain why
a retest was requested.
C.)

Mr. Garcia was sentence under the actual methamphetamine

Guidelines.

The court hould have use the methamphetamine mixture

rahter than the actual.because:
1.) The 10:1 ratio established in the Guidelines is not bases
on empirical evidence creating Guidelines ranges for (actual and
ice) methamphetamine that are excessive not "heart-land."
2.) Drug purity is not an accurate proxy for culpability in

o

light of the fact that methamphetamine trafficked in recent years

16.

has been substantially pure.

©

United States v. Hayes, 948 F.Supp

2d at 1031, United States v. Nawanna 321 F.Supp 3d 969 (N.D. Iowa)
and United States v. Harry, 313 F.Supp 3d 969 (N.D. Iowa).

If

Mr. Garcia's motion for retest of drug would have been granted,
Mr. Garcia would have been provided a fair trial and would of
demonstrated he was sentence under the wrong Guidelines.

0

17.

0

CONCLUSION
The Government erred by using the aiding and abetting as a
prior conviction under the 4B1-1 Career Offender provision - The
Government erred in ruling that accomplice to battery is a crime
of violence under the Career Offender provision and abuse its
discretion when they apply the modified categorical approach and
use the underlying conduct to demonstrate culpability instead of
fact findings of the state court records.

Affecting Mr. Garcia

Substantial Rights and Due Process Rights,

The Government also

abuse its discretion by denying Mr. Garcia's motion for Retest of
Drug Quantity and Quality and motion for approval of expenditures
and it was prejudicial to Mr. Garcia ability to mount a defense,
exposing him to an excessive sentence,

©

Mr. Garcia respectfully

request that this Court reverse and remand.

Respectfully Submitted,

Jose/A. Garcia, Petitioner Pro Se

o
18.

